 Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENERAL




NON-EMERGENCY TRANSPORTATION
      FOR DIALYSIS PATIENTS




              ,atiSXM7C2S
                      “b%
          *
         g                  JUNE GIBBS BROWN
         :                  Inspector General
         *
         % -g
           %
           >+                  AUGUST 1994
             %g
             >                 OEI-03-90-02132
                      OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
programs as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by three OIG operating components: the Office of Audit Services, the
Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
the Secretary of HHS of program and management problems and recommends courses to
correct them.

                          OFFICE OF AUDIT SERVICES
The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors in
carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the Department.

                          OFFICE OF INVESTIGATIONS

The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

              OFFICE OF EVALUATION AND INSPECITONS

The OIGS Office of Evaluation and Inspections (OEI) conducts short-term management and
program evaluations (called inspections) that focus on issues of concern to the Department,
the Congress, and the public. The findings and recommendations contained in these inspection
reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
and effectiveness of departmental programs.

This report was prepared in the Philadelphia regional office under the direction of Joy Quill,
Regional Inspector General and Robert A. Vito, Deputy Regional Inspector General. Project
staf~

REGION                                     13EADOUARTERS

Nancy J. Molyneaux, Project Leader          Hugh Hetzer, Program Analyst

Laura M. Shafron, Intern

Myra Reichel, Intern


For additional copies of this repo~ please contact the Philadelphia Regional Office at
(800) 531-9562
                    EXECUTIVE                          SUMMARY

PURPOSE


To identify non-emergency transportation   services and sources of financial assistance to
cover transportation expenses for patients going to kidney dialysis in a sample of eight
cities.

BACKGROUND

In previous work, we found that many dialysis patients do not meet Medicare coverage
guidelines for ambulance transportation.     As part of its response to our findings, the
Health Care Financing Administration (HCFA) has planned research on alternative
forms of transportation for dialysis patients. The information in this report is provided to
assist HCFA as it pursues that research and formulates policy in this area.

The HCFA explains in the Medicare Carriers Manual that no payment for ambulance
transportation may be made in any case in which some means of transportation other
than an ambulance could be utilized without endangering the individual’s health, whether
or not such other transportation is actually available (section 2120.2.A.). The Manual
also states that a person receiving outpatient dialysis is not ordinarily ill enough to
require an ambulance (section 2120.3 .J.). While Medicare does cover transportation
services in limited circumstances, transport in a vehicle other than an ambulance is not
covered.

Most persons with kidney failure go to dialysis facilities for treatment rather than
dialyzing at home. These patients must travel to the facilities an average of three times
per week. A small number of these patients use ambulances to go to and from dialysis
at a very high cost.

A recent Office of Inspector General report (Ambulance Transpotiahon for ESRD
Beneficiaries: Medical Necessi~ OEI-03-90-02130) found that many ambulance transports
to dialysis did not meet Medicare’s medical necessity guidelines. The study found many
of these patients could have been transported safely by other means. However, it was
not clear what types of non-emergency transportation were available or whether non-
emergency transportation was physically and financially accessible to patients going to
dialysis. The HCFA staff asked us to find out what we could about transportation
semices for dialysis patients.

We obtained     information   from transportation  coordinators in 18 dialysis facilities in eight
cities.   These respondents    identified 37 non-emergency    transportation providers and 16
organizations which provide financial assistance for transportation       expenses from whom
we gathered further information.



                                                   i
FINDINGS

~ampotiation   appeam to be avaikble in most of the sampled cities.

Patients use a number of different types of vehicles to travel to dialysis. These include
cars, taxis, wheelchair vans, passenger vans, and buses. According to dialysis facility
respondents, approximately one-quarter of their patients come to dialysis in privately
owned cars.

Transportation seems generally available in most of the sampled cities. Dialysis facility
respondents in five of the sampled cities thought that there was enough transportation
available for people going to dialysis. Only an estimated 20-22 of the nearly 2000
patients treated at the facilities in our sample occasionally missed treatments due to lack
of affordable transportation.    Thirty-four out of 37 transportation providers did not have
waiting lists for patients who needed transport to dialysis.

Financial &tance    for tran.yxntation expenses was aiko generally available.

Financial assistance for transportation expenses comes from a variety of sources. These
include Medicaid in all States, and in some places State kidney programs, the American
Kidney Fund, Area Agencies on Aging, the American Red Cross, and the National
Kidney Foundation.

Howeve.q reqxmdknts did ident@ probkms in some locations for some patients.

In one of the eight cities in our sample dialysis facility respondents felt there were not
enough transportation services at all for people going to dialysis. In two other cities
respondents did not think there were enough transportation services for certain people or
in certain areas.

Respondents from all sampled cities also identified other barriers to access. Three
problems were frequently mentioned: long waiting times, costs for patients not eligible
for financial assistance, and lack of physical assistance to patients using the services.

CONCLUSION

Based on this limited review, we draw several preliminary conclusions about non-
emergency transportation for dialysis patients. We offer these to HCFA as it conducts a
more substantive effort to examine access to transportation for dialysis patients.

First, it does not appear that lack of access to alternative forms of transportation is a
central explanation of our data indicating inappropriate use of emergency transportation.
In most of the sampled cities, alternative forms of transportation seem generally
available.




                                               ii
Second, successful approaches to developing a network of transportation options seem to
exist. More in-depth review of the five cities where respondents reported quite favorably
about the availability of transportation might provide good lessons for other localities.
How did such networks come to exist? How are the problems which were identified in
other cities addressed?

Third, some problems might merit further examination: locations where access problems
might exist, special access problems for certain populations, and problems of long waiting
times and lack of physical assistance that might apply more generally to all dialysis
patients. These are areas that HCFA may wish to pursue further in its research planned
on this subject. In addition, non-urban populations (who we did not examine) may also
merit further examination, since such areas may pose different challenges or represent
unique issues.




                                              ...
                                             111
                   TABLE                      OF CONTENTS
                                                                                                            PAGE

EXECUTIVE       SUMMARY

INTRODUCHON            ................................................                                                 1


FINDINGS      .....................................................                                                     3

 Availability oftransportation          .......................................                                         3

 Financial assistance for transportation             ................................                                   3

 Problems with transportation          services . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       5

CONCLUSION             .................................................                                                7

APPENDICES

f%   Sample ofcities     . . . . . . . ..o.   ..................................                                    4-1
                                                                                                                    A




B:                 which provide                      assistance      . . . . . . . . . . . . . . . . . . . . . . B-1
                            INTRODUCTION

PURPOSE


To identify non-emergency transportation services and sources of financial assistance to

cover transportation expenses for patients going to kidney dialysis in a sample of eight

cities.


BACKGROUND


In previous work, we found that many dialysis patients do not meet Medicare coverage

guidelines for ambulance transportation.     As part of its response to our findings, the

Health Care Financing Administration (HCFA) has planned research on alternative

forms of transportation for dialysis patients. The information in this report is provided to

assist HCFA as it pursues that research and formulates policy in this area.


The Health Care Financing Administration (HCFA) explains in the Medicare Carriers

Manual that no payment for ambulance transportation may be made in any case in which

some means of transportation other than an ambulance could be utilized without

endangering the individual’s health, whether or not such other transportation is actually

available (section 2120.2.A.). The Manual also states that a person receiving outpatient

dialysis is not ordinarily ill enough to require an ambulance (section 2120.3 .J.). While

Medicare does cover ambulance transportation services in limited circumstances,

transport in a vehicle other than an ambulance is not covered.


Most persons with kidney failure go to dialysis facilities for treatment rather than

dialyzing at home. These patients must travel to the facilities an average of three times

per week. A small number of these patients use ambulances to go to and from dialysis.


A recent Office of Inspector General (OIG) report (Ambulance Transpofiation for ESRD

Beneficiaries: Medka/ Necessizy OEI-03-90-02130) found that many ambulance transports

to dialysis did not meet Medicare’s medical necessity guidelines. The study found that

many of these patients could have been transported safely by other means. However, it

was not clear what types of non-emergency transportation were available or whether non-

emergency transportation was physically and financially accessible to patients going to

dialysis. HCFA staff asked us to find out what we could about transportation services for

dialysis patients.


SCOPE AND METHODOLOGY


This report focuses on transportation of patients to and from dialysis treatments   in

vehicles other than ambulances in a sample of eight cities.


Respondents were selected from the sample of eight carriers and 277 end stage renal

disease beneficiaries used for two previous OIG studies (Ambulance Transpotialion for



                                             1
ESRD Beneficiaries: Medical Necessily OEI-03-90-02130 and Ambulance Transpotiation for
ESRD13eneficiaries: Payment Practices 0EI-03-90-02131).     We chose one city in eachof
the eight carrier areas where the most sample beneficiaries were dialyzed in1991. A
total of 70 beneficiaries of the 180 who were transportedto  dialysis by ambulance were
dialyzed inthese cities (See Appendix A). Sixofthe sites selected were large
metropolitan areas and two were small cities. We did not examine rural areas.

Since transportation arrangements are often coordinated by dialysis facility social
workers, we contacted a total of 18 dialysis facilities in the selected cities. We
interviewed them to determine what types of non-emergency vehicles were used to
transport patients to their facility, the names and addresses of non-emergency
transportation providers, and whether financial assistance was available for transportation
expenses.

We then contacted 37 non-emergency transport providers identified by dialysis facility
respondents to determine what types of non-emergency transportation they offer, what
physical assistance they provide to non-emergency patients, and the cost to patients for
transportation.

Finally, we contacted 16 organizations and agencies which provide financial assistance for
dialysis patients’ transportation expenses. Respondents included representatives from
private kidney organizations, Area Agencies on Aging, State Medicaid agencies, and State
kidney programs.




                                             2

                                     FINDINGS


TRANSPORTATION          APPEARS     TO BE AVAILABLE          IN MOST OF THE SAMPLED
CITIES.
Patients use a number of different types of vehicles to travel to dialysis. These include

cars, taxis, wheelchair vans, passenger vans, and buses. According to dialysis facility

respondents, approximately one-quarter of their patients come to dialysis in privately

owned cars. Another 30 percent come in wheelchair vans. Most of the remainder come

by taxis, public buses, or buses with wheelchair lifts. Only a very small percentage come

to dialysis in ambulances.


Based on responses from dialysis facility staff, availability of transportation services does

not appear to be a problem in most of the cities covered by our review. Dialysis facility

respondents in five of the sampled cities (Detroit, MI, Fremont, CA Miami Beach, ~

New York City, NY, and Pittsburgh, PA) thought that there was enough transportation

available for people going to dialysis. Limited problems were reported in two

communities (Elizabethtown, KY and Brighton, MA), and a general unavailability was

reported in one city (Houston, TX).


Only an estimated 20-22 of the nearly 2000 patients treated at the facilities in our sample

occasionally missed treatments due to lack of affordable transportation.   Thirty-four out

of 37 transportation providers did not have waiting lists for patients who needed

transport to dialysis.


FINANCIAL ASSISTANCE           WAS ALSO GENERALLY            AVAILABLE       TO PATIENTS
GOING TO DIALYSIS.

Financial assistance for transportation expenses comes from a variety of sources such as
Medicaid, Area Agencies on Aging, State Kidney Programs, the American Kidney Fund,
the National Kidney Fund, and the American Red Cross. A range of organizations or
agencies offers financial assistancelfor transportation expenses in each city in our
sample. See Appendix B for a breakdown of resources by city.

Medicaid

Transportation services are covered for Medicaid-eligible dialysis patients. Medicaid
regulations state that all Medicaid agencies “will ensure necessary transportation for
recipients to and from providers” (42 CFR 431.53). Medicaid rarely pays for ambulance
service but will cover other vehicles such as wheelchair vans, taxis, and in some cases
privately owned cars. Medicaid was cited by 25 of 37 transportation providers as the


       *We included the provision of free or discounted services as a form of financial
  assistance in describing some organizations.


                                              3
primary source of financial assistance. All of the dialysis facility respondents also
indicated Medicaid as a source of financial assistance for transportation expenses.

Americans with Dkabilitia Act

Some dialysis patients who qualify as “transportation disabled” would be eligible for
transportation services under the Americans with Disabilities Act of 1990 (42 U.S.C.
12101-12213). Regulations implementing the Americans with Disabilities Act (ADA)
require that “each public entity operating a fixed route system shall provide paratransit or
other special service to individuals with disabilities that is comparable to the level of
service provided to individuals without disabilities who use the fixed route system” (49
CFR 37.121).

While the ADA does not directly provide financial assistance to disabled patients going
to dialysis, it does stipulate that fares for paratransit sefice “shall not exceed twice the
fare that would be charged to an individual paying full fare...on the entity’s fixed route
system” (49 CFR 37.131). This would limit costs for disabled dialysis patients to no
more than a few dollars each way.

Area Agencies on Aging

Area Agencies on Aging can be another source of financial assistance. In half the cities
we selected there were transportation services specifically for the elderly. Two of these
providers serve persons who are 60 or older. One provides services to those who are 62
or older and handicapped. The fourth only serves persons 65 or older.

State Kidkey RT2grams

Two State kidney programs cover some transportation expenses for dialysis patients in
the sampled cities. One program will provide up to $350 per month to cover both
transportation and drug expenses. Another State program contracts with other
organizations to coordinate transportation services. These organizations must also
provide matching funds for transportation. Both State kidney programs require co­
payments which are determined by the patient’s income. In one program, nearly 84
percent of dialysis patients had incomes below the level required for co-payments in
1993.

American Kidnqy Fund

The American Kidney Fund will provide up to three $200 grants per year to cover
expenses related to a patients’ kidney condition including transportation costs. However,
they do not provide financial assistance for transportation services on a routine basis.
Patients must apply for a grant each time they need assistance. Patients’ needs for
financial assistance is determined on a case by case basis.

National Kidney Foundation


                                              4
Local chapters of the National Kidney Foundation (NKF) are another source of financial
assistance in some areas. Branches of the NKF in three of the eight cities selected
provide financial assistance for transportation expenses. The NKF reimburses for taxis,
paratransit (wheelchair van), mileage for personal auto use, and gives emergency funds
for special one-time situations.

Patients must not be eligible for funding from any other source, such as Medicaid, in
order to receive financial assistance from NKF. The level of funding varies in each area.
For example, the NKF in one area will provide a patient who is not eligible for Medicaid
with $50 a month for transportation expenses. Other NKF offices do not set limits on
monthly funding.

American Red Cress

In two cities, the American Red Cross provides not money but free transportation to
dialysis patients. In one city, however, sefices are limited to patients referred by a social
worker at a facility the Red Cross serves. In both cities, the patient had to be unable to
afford any other means of transportation in order to qualify for Red Cross services.

DiaZysisFacilities

In some cases, dialysis facilities will pay for a patient’s transportation. However, this is
only on a sporadic, emergency basis. None of the dialysis facilities we contacted provided
financial assistance for transportation expenses on a regular basis. Even the emergency
financial assistance facilities give may come from another source such as the American
Kidney Fund.

HOWE-    RESPONDENTS             DID IDENTIFY       PROBLEMS      IN SOME LOCATIONS
FOR SOME PATIENTS.

As mentioned earlier, dialysis facility staff in three cities said there were not enough
transportation services for dialysis patients. In two cities, the problems reported were
limited: one said there needed to be more transportation for those not eligible for
Medicaid or elderly sexvices and another said only particular counties were affected. In
one city, dialysis facility respondents said there were not enough transportation services
at all for people going to dialysis.

Respondents from all sampled cities did identify other barriers to access. Three
problems were frequently mentioned: long waiting times, costs for patients not eligible
for financial assistance, and lack of physical assistance to patients using the services.

Long waiting times was the problem mentioned most often. According to dialysis facility
social workers, patients often must wait a long time to be dropped off at the facility and
then again later to be picked up after treatment. If a patient is late for her or his
scheduled dialysis treatment it sometimes means that treatment will be shortened. This
can lead to other medical complications.


                                              5
Cost was the second most common problem mentioned by dialysis facility social workers.
Patients outofpocket      costs for transportation vary. Inmanycases, aperson eligible for
Medicaid pays nothing. Inother cases, dialysis patients pay bemeen.75-$30     each way.
For patients traveling to dialysis three times a week, these costs can become prohibitive.
Among dialysis facility respondents, most concern was focused on those not eligible for
Medicaid but not ill enough to require a Medicare reimbursed ambulance. Over one-
third of the transportation providers we contacted require that a patient be Medicaid
eligible in order to receive transportation services.

According to some dialysis facility respondents lack of physical assistance on the part of
transportation providers was a problem for some patients. Twenty-one of the 37
providers we contacted said they did provide physical assistance on stairs. While some
providers would only assist patients on one to seven steps, in New York City some
providers will carry patients up and down as many as six flights of stairs. Six providers
said they provided curb-to-curb service only.




                                             6

                                    CONCLUSION

Based on this limited review, we draw several preliminary conclusions about non-
emergency transportation for dialysis patients. We offer these to HCFA as it conducts a
more substantive effort to examine access to transportation for dialysis patients.

First, it does not appear that lack of access to alternative forms of transportation is a
central explanation of our data indicating inappropriate use of emergency transportation.
In most of the sampled cities, alternative forms of transportation seem generally
available.

Second, successful approaches to developing      a network of transportation options seem to
exist. More in-depth review of the five cities   where respondents reported quite favorably
about the availability of transportation might   provide good lessons for other localities.
How did such networks come to exist? How         are the problems which were identified in
other cities addressed?

Third, some problems might merit further examination: locations where access problems
might exist, special access problems for certain populations, and problems of long waiting
times and lack of physical assistance that might apply more generally to all dialysis
patients. These are areas that HCFA may wish to pursue further in its research planned
on this subject. In addition, non-urban populations (whom we did not examine) may also
merit further examination, since such areas may pose different challenges or represent
unique issues.




                                             7

                                APPENDIX               A


                                   SAMPLE OF CITIES

Listed below are the number of beneficiaries, from the sample of 277 used for two
pretious studies, whowere dialyzed ineachof the sampled cities. The sites chosen
represent the city within each carrier where the most sample beneficiaries were dialyzed.
After choosing these cities we then contacted the dialysis facilities in each city where
these beneficiaries were dialyzed to find out about non-emergency transportation services
used by patients at that facility. We obtained information about transportation from
dialysis facility social workers who coordinate transportation arrangements for dialysis
patients and from non-emergency transportation providers serving these facilities.

Detroit, MI -16 beneficiaries

Elizabethtown,   KY -12 beneficiaries

Houston, TX -11 beneficiaries

Brighton, MA -9 beneficiaries

New York, NY -9 beneficiaries

Miami Beach, FL -6 beneficiaries

Pittsburgh, PA -4 beneficiaries

Fremont, CA -3 beneficiaries




                                         A-1

                                APPENDIX                    B


          ORGANIZATIONS          WHICH PROVIDE            FINANCIAL   ASSISTANCE


                   Organizations Which Provide Financial Assistance For
                           Transportation Expenses in Eight Cities
                      Medic-    AKF1     Nl@      ,40A3       Red
                       aid                                    Cross


  Fremont, CA           x        x                                              1



  Miami Beach,          x        x        x                               x
  FL                                                                            I


  Elizabeth-
  town, KY              x        x                    x
  Boston, MA            x        x                    x                   xl
  Detroit, MI           x        x                    x         x         xl
  New Yorlq NY          x        x                                        xl    1




  Pittsburgh, PA        x        x        x           x                   X1X   I


  Houston, TX           x        x        x                     x         X1X
  TOTAL                 8         8        3          4         2         7     12
 1 American Kidney Fund - This organization is located in Baltimore, Maryland but
 serves patients with kidney disease nationwide.
2 National Kidney Foundation
 3
        Area Agencies on Aging
 4 Americans with Disabilities Act




                                               B-1

